              OFFICE OF
       THE INSPECTOR GENERAL
  SOCIAL SECURITY ADMINISTRATION

   TERMINATION OF DISABILITY BENEFITS
FOLLOWING A CONTINUING DISABILITY REVIEW
       CESSATION DETERMINATION

        November 2012   A-07-12-11211




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM

Date:      November 1, 2012                                                          Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Termination of Disability Benefits Following a Continuing Disability Review Cessation
           Determination (A-07-12-11211)


           OBJECTIVE
           The objective of our review was to determine whether the Social Security Administration
           (SSA) timely terminated benefits following a continuing disability review (CDR)
           cessation determination.

           BACKGROUND
           Title II of the Social Security Act (Act) allows individuals to receive Disability Insurance
           (DI) benefits if they are fully insured, have not reached retirement age, and are
           determined to be disabled according to SSA regulations. 1 DI benefits are financed from
           the DI Trust Fund. 2

           Title XVI of the Act established the Supplemental Security Income (SSI) program. 3 SSI
           is a Federal cash assistance program that guarantees a minimum level of income to
           financially needy individuals who are aged, blind, or disabled. SSI payments are
           financed from the general fund. 4

           Once an individual begins receiving disability benefits under the DI or SSI program,
           SSA ensures only those individuals who remain disabled will continue receiving
           benefits. SSA conducts CDRs on DI beneficiaries and SSI recipients to determine
           whether they remain medically eligible for disability payments. 5 A decision to

           1
               Act § 223, et seq., 42 U.S.C. § 423 et seq. See also 20 C.F.R. §§ 404.130 - 404.133.
           2
               Act § 201(b), 42 U.S.C. § 401(b).
           3
               Act § 1601, et seq., 42 U.S.C. § 1381 et seq. See also 20 C.F.R. § 416.101 et seq.
           4
               Id.
           5
            Generally, the frequency of medical CDRs depends on SSA’s assessment of the likelihood of medical
           improvement. 20 C.F.R. § 404.1590(d) and 20 C.F.R. § 416.990(d).
Page 2 - The Commissioner


discontinue benefits is made when a CDR reveals an individual no longer meets the
medical requirements for disability benefits, referred to as a medical cessation
determination. 6 Medical cessation determinations are made by disability examiners in
the Office of Central Operations and State disability determination services (DDS) as
well as disability specialists in program service centers. Once SSA decides an
individual is no longer eligible for disability benefits, it should inform the individual of its
decision and discontinue payments 2 months after the cessation determination. 7

RESULTS OF REVIEW
We identified populations of 25,564 DI beneficiaries and 67,943 SSI recipients who
received medical cessation determinations during Calendar Years (CY) 2005 through
2010 but continued receiving monthly benefit payments more than 2 months after the
medical cessation determination. 8 We reviewed samples of 250 DI beneficiaries and
250 SSI recipients. We found some individuals who received improper payments
because their disability benefits were not terminated 2 months after the cessation
determination per SSA policy. 9 Specifically, we found the following.

•         Of the 250 DI beneficiaries, 76 (30 percent) and their auxiliaries improperly received
          payments after their medical cessation determinations because benefits were not
          terminated timely. Accordingly, we project that 7,771 beneficiaries in our population
          received improper benefit payments of approximately $48.9 million.
•         Of the 250 SSI recipients, 41 (16 percent) improperly received payments after their
          medical cessation determinations because payments were not terminated timely.
          Accordingly, we project that 11,143 recipients in our population received improper
          payments of approximately $34.7 million.

Since November 2003, SSA has been aware that disability payments have not always
been terminated timely following a medical cessation determination. Since 2003, SSA

6
    SSA, POMS, DI 28001.001 B (November 7, 2002).
7
    Id.
8
 We identified beneficiaries who received a payment in the third month after the cessation determination
since beneficiaries are allowed to receive benefits for the month of cessation and the following 2 months.
SSA, POMS, DI 28001.001 B (November 7, 2002). See Appendix B for the Scope and Methodology of
our review.
9
  SSA, POMS, DI 28001.001 B (November 7, 2002). Some individuals were due the payments they
received in the third month after the cessation determination. Specifically, SSA allows beneficiaries to
continue receiving payments during appeal of a medical cessation determination. SSA, POMS,
DI 12027.001 (April 20, 2007). Therefore, beneficiaries who received a favorable decision on appeal or
had an appeal pending were due the benefits they received during the appeal. Beneficiaries who
received an unfavorable decision or dismissal on appeal were required to repay the benefits they
received; however, the only payments we considered improper were those that continued more than
2 months after the unfavorable decision or dismissal. Further, beneficiaries who received an allowance
decision on a new initial claim with a disability onset date within 2 months of the medical cessation
determination were due the benefits they received following the cessation determination.
Page 3 - The Commissioner


has identified and taken corrective actions on cases where benefit payments were not
terminated following a medical cessation. Furthermore, in January 2006, SSA began
taking actions to resolve the underlying systems and business process issues
associated with the untimely termination of benefits, including automating its CDR
processes.

Despite SSA’s actions to resolve the causes of untimely terminations, there were still
instances where SSA continued improperly paying DI beneficiaries and SSI recipients
because of additional systems limitations. In addition, according to SSA, in June 2009,
resource limitations and other work priorities caused the Agency to stop routinely
identifying cases where benefits were not terminated timely following a medical
cessation determination.

DI BENEFICIARIES

We reviewed a sample of 250 DI beneficiaries who received medical cessation
determinations during CYs 2005 through 2010 and received a payment more than
2 months after the cessation determination. We identified 76 beneficiaries who
improperly received benefit payments after their medical cessation determinations. 10
These 76 beneficiaries were improperly paid for periods ranging from 1 to 63 months
because their benefits were not terminated timely following the medical cessation
determinations (see Table 1).
                                        Table 1
                         Number of Months DI Beneficiaries
                            Received Improper Payments
                             Number of        Number of DI
                              Months           Beneficiaries
                                  1                 27
                                2–6                 23
                               7 – 12               14
                              13 – 18                 3
                              19 – 24                 1
                              25 – 30                 3
                              31 – 63                 5
                               Total                76

Based on our sample, we project that 7,771 (30 percent) of the 25,564 DI beneficiaries
in our population improperly received benefits following a medical cessation
determination (see Appendix C, Table C-1). As a result, we project improper payments
to these beneficiaries and their auxiliaries of approximately $48.9 million.

10
  Of the remaining 174 beneficiaries, 162 were due the payments they received after their medical
cessation determinations because they either appealed the medical cessation determination or received
an allowance decision on a new initial claim for disability benefits (see Footnote 9). The remaining
12 beneficiaries were due the benefits they received after the medical cessation determinations for
various other reasons. For example, one beneficiary began receiving retirement benefits the same month
as the medical cessation determination.
Page 4 - The Commissioner


At the time of our review, SSA had identified and terminated benefits to 73 of these
76 beneficiaries. 11 However, three beneficiaries were still receiving improper benefit
payments at the time of our review, and these beneficiaries had been receiving
payments for 24 to 41 months
following their medical cessation                              Chart 1
determinations. In February 2012,              DI Overpayment     Collection Activity
we referred these three beneficiaries                                    In Process
to SSA for possible corrective action.               25% 15%             Waived
As of May 7, 2012, these three                                 16%       Collection Suspended
                                                     23%                 Collected
beneficiaries had benefits terminated,                      21%
and the approximately $109,000 they                                      Undetermined
were improperly paid was assessed
as overpayments.

For 58 of the 73 beneficiaries, SSA assessed overpayments of more than $288,000,
including overpayments to auxiliaries. 12 Therefore, we project that SSA assessed
overpayments of about $29.4 million for 5,931 beneficiaries and their auxiliaries in our
population. 13 However, we estimate SSA had only collected 23 percent of the
overpayments (see Chart 1). SSA was collecting 15 percent of the overpayments. 14




11
   Eleven of the 73 beneficiaries were receiving benefits at the time of our review because of a new
application for disability or retirement benefits or because a new CDR had been conducted. However, we
considered as improper any payments made between the medical cessation determination and the onset
of the new disability or attainment of retirement age.
12
  Based on our review, we believe these 58 beneficiaries and their auxiliaries were improperly paid over
$307,000. Therefore, we believe SSA should have assessed an additional $19,000 in overpayments for
these beneficiaries and their auxiliaries. In addition, the remaining 15 beneficiaries and their auxiliaries
were improperly paid almost $64,000, which we believe SSA should have assessed as overpayments. A
systems problem that SSA has corrected likely caused 12 of the 15 beneficiaries to be improperly paid for
only 1 month, for a total of almost $10,000. Further, one beneficiary who was improperly paid about
$11,000 died before SSA took action. However, SSA employees could not explain why overpayments
had not been assessed for the remaining two beneficiaries who received almost $43,000 in improper
payments.
13
  See Appendix C, Table C-2. This does not include overpayments assessed on beneficiaries we
referred to SSA for possible corrective action.
14
  These overpayments were being collected through benefit adjustment or installment agreement or were
included in the Treasury Offset Program. Benefit adjustment is withholding payments due the overpaid
individual. SSA, POMS, GN 02210.001 (May 7, 2012). Installment agreements are scheduled
repayments from the overpaid individual when benefit adjustment and full refund is not available. SSA,
POMS, GN 02210.180 (April 3, 2007). The Treasury Offset Program enables the Department of the
Treasury to recover an individual’s delinquent SSA debt by collecting any Federal payment, such as
Federal income tax refunds, due to that individual and crediting SSA with the amount collected. SSA,
POMS, GN 02201.029 (February 21, 2002).
Page 5 - The Commissioner


SSA waived, suspended collection on, or had not determined what actions to take on
the remaining overpayments. 15

SSI RECIPIENTS

We reviewed a sample of 250 SSI recipients who received a medical cessation
determination during CYs 2005 through 2010 and received a payment more than
2 months after the cessation determination. Our
review identified 41 recipients who                            Table 2
improperly received payments after their
                                                  Number of Months SSI Recipients
medical cessation determinations. 16 Of these,
                                                    Received Erroneous Payments
40 recipients were improperly paid for periods
                                                  Number of        Number of SSI
ranging from 1 to 20 months, and 1 recipient
                                                    Months           Recipients
was improperly paid for 74 months, because
                                                        1                 28
their payments were not terminated timely
                                                       2–6                 2
(see Table 2).
                                                      7 – 12               5
Based on our sample, we project that                 13 – 18               3
11,143 (16 percent) of the 67,943 SSI recipients     19  – 24              2
in our population improperly received payments       25 – 30               0
following a medical cessation determination          31  – 74              1
(see Appendix C, Table C-3). As a result, we          Total               41
project improper payments to these recipients of
approximately $34.7 million.

At the time of our review, SSA had identified and terminated payments to 40 of these
recipients. However, one recipient was still receiving improper payments at the time of
our review and had been receiving payments for 13 months following the medical
cessation determination. In February 2012, we referred this recipient to SSA for
possible corrective action. In March 2012, SSA terminated payments to the recipient
and assessed the $8,219 that was improperly paid as an overpayment.

15
  A waiver relieves the individual from further liability for the overpayment. SSA, POMS,
GN 02215.235 B.4 (October 22, 2009). Recovery of an overpayment may be waived if such recovery
would be against equity and good conscience or defeat the purpose of the programs. SSA, POMS,
GN 02250.001 (October 4, 2005) and SSA, POMS, GN 02250.150 (January 25, 2012). If SSA
determines an overpayment is not collectible, it may elect to terminate future collection efforts by
suspending collection of the debt. Later, if SSA determines a debt is collectible, it may change or delete
the suspension decision. SSA, POMS, GN 02215.250 (December 22, 1998). According to SSA, actions
might not be taken on overpayments when individuals are no longer in current payment status or they
protest the overpayments.
16
  Of the remaining 209 recipients, 202 were due the payments they received after their medical cessation
determinations because they either appealed the medical cessation determination or filed a new claim for
SSI (see Footnote 9). The remaining seven recipients were due the payments they received after the
medical cessation determinations for various other reasons. For example, the cessation date on one
case changed after a quality assurance review; therefore, the recipient was due the payments received
between the original and revised cessation dates.
Page 6 - The Commissioner


For 21 of the 40 recipients, SSA assessed overpayments of approximately $51,000. 17
Therefore, we project that SSA assessed overpayments of almost $14 million for
5,707 recipients in our population. 18 However, we estimate SSA had only collected
19 percent of the overpayments (see Chart 2). SSA was collecting half of the
overpayments. 19 SSA waived, suspended collection on, or had not determined what
action to take on the remaining overpayments.

                                           Chart 2
                               SSI Overpayment Collection Activity
                                         1%
                                                         Waived
                                          15%
                                                         Undetermined
                                  50%       15%          Collection Suspended
                                          19%            Collected
                                                         In Process


SSA’S ACTIONS TO RESOLVE UNTIMELY BENEFIT TERMINATION

In November 2003, SSA detected beneficiaries who continued receiving benefit
payments after medical cessation determinations. SSA determined that some medical
cessation determinations were not effectuated for various administrative reasons,
including inadequate controls and the lack of automated systems. Specifically, DDS
employees clipped cessation notices to the outside of paper case folders. Often, the
notices became detached from the paper case folder or were overlooked by the DDS
employee responsible for releasing the notices. In addition, SSA used a manual
process to terminate DI benefits, which caused delays in terminating some benefits.
Furthermore, similar manual processes and lack of controls caused some appeals of
cessation determinations to be lost and never processed or, if they were processed,
payments were not terminated timely.

Beginning in January 2006, SSA took actions to resolve the underlying systems and
business process issues associated with the untimely termination of benefits following a
medical cessation determination. Specifically, SSA transitioned the paper CDR process
into an electronic CDR process, with implementation beginning in Fiscal Year 2008.
With the electronic process, DDSs submit cessation notices electronically to the
17
  Based on our review, we believe these 21 recipients were improperly paid over $103,000. Therefore,
we believe SSA should have assessed an additional $52,000 in overpayments for these recipients. In
addition, the remaining 19 recipients were improperly paid over $16,000, which we believe SSA should
have assessed as overpayments. A systems problem that SSA has corrected likely caused 18 of the
19 recipients to be improperly paid for only 1 month, for a total of almost $9,000. However, SSA
employees could not explain why an overpayment had not been assessed for the remaining recipient who
received approximately $7,000 in improper payments over 19 months.
18
  See Appendix C, Table C-4. This does not include the overpayment assessed on the recipient we
referred to SSA for possible corrective action.
19
  These overpayments were being collected through benefit adjustment or installment agreement or were
included in the Treasury Offset Program (see Footnote 14).
Page 7 - The Commissioner


processing component for benefit termination. 20 As part of the electronic CDR process,
SSA developed an electronic appeals process to reduce the number of lost and
unprocessed appeals. Also, in September 2010, SSA automated the process for
terminating DI benefits. 21

Despite SSA’s actions to resolve the issues associated with the untimely termination of
benefits, we found that SSA continued improperly paying DI beneficiaries and SSI
recipients following medical cessation determinations. In fact, we identified improperly
paid DI beneficiaries and SSI recipients who had medical cessation determinations
made after 2006 (see Table 3).

                                        Table 3
                  CY of Cessation Determinations for Improperly Paid
                          DI Beneficiaries and SSI Recipients
               CY of          DI Beneficiaries             SSI Recipients
             Cessation     Number         Percent      Number       Percent
               2005           27             35%           7          17%
               2006           18             24%           4          10%
               2007           12             16%          12          29%
               2008            6              8%           5          12%
               2009           13             17%           6          15%
               2010            0              0%           7          17%
               Total          76            100%          41         100%

According to SSA, the automated processes did not always work because of systems
limitations. For example, if an individual’s benefits were already suspended for another
reason, automatic cessation would not occur. SSA employees were aware of these
systems limitations and were to manually check cases to ensure the termination actions
were accomplished. According to SSA, reduced resources and increased workloads
may have prompted employees to rely on the system, rather than manually checking
each case to ensure timely termination of benefits. Therefore, we recommend SSA
enhance the processing system’s ability to perform automated terminations to ensure
the timely termination of benefits following a medical cessation determination. In the
meantime, SSA should remind employees to check cases to ensure termination actions
are accomplished timely.

SSA’S IDENTIFICATION OF UNTIMELY BENEFIT TERMINATION FOLLOWING
MEDICAL CESSATION DETERMINATIONS

SSA also took actions to identify DI beneficiaries and SSI recipients who continued
receiving benefit payments after medical cessation determinations. In fact, SSA

20
     SSA, POMS, DI 81010.245 A (March 16, 2010)
21
  Automating the process for terminating DI benefits appears to have reduced the number of untimely
benefit terminations. We did not identify any DI beneficiaries whose benefits were terminated untimely
and who had medical cessation determinations between October and December 2010.
Page 8 - The Commissioner


identified 29,235 cases from November 2003 through June 2009. 22 Once SSA
determined potentially improper payments were being made following the medical
cessation determinations, SSA sent the cases to each region for review and corrective
action. SSA divided the 29,235 cases into 2 categories based on the date of the
medical cessation determination:

1. 16,599 Uneffectuated Medical Cessations (UMC), which were those cases with a
   medical cessation determination made before January 1, 2006 and

2. 12,636 Overdue Medical Cessations, which were those cases with a medical
   cessation determination made on or after January 1, 2006.

Because of past practices and systems limitations, SSA could not confirm with absolute
certainty that the required cessation notices had been sent to all affected beneficiaries
and recipients with UMC cases. Therefore, DDSs had to conduct new CDRs for some
UMC cases. However, while SSA tracked the outcome of all UMC cases, SSA did not
collect management information on the number of new CDRs performed or the resulting
determinations. 23

Since June 2009, SSA has not routinely identified cases where benefits were not
terminated following medical cessation determinations. According to SSA, this was the
result of resource limitations and other work priorities. SSA is identifying a component
with the resources and systems knowledge available to resume identifying these cases.
However, improper payments continue to be made to DI beneficiaries and SSI
recipients whose benefits are not terminated timely following medical cessation
determinations. Therefore, we recommend that SSA prioritize the identification of cases
where disability benefit payments were not terminated following medical cessation
determinations to minimize improper payments.

CONCLUSION AND RECOMMENDATIONS
We found 30 percent of DI beneficiaries and 16 percent of SSI recipients in our sample
improperly received benefit payments following a medical cessation determination.
These improper payments occurred, in part, because SSA lacked adequate controls
and did not have automated systems for processing medical cessation determinations.

Since 2006, SSA has made changes to ensure fewer individuals received improper
payments following a medical cessation determination. Specifically, SSA automated the
CDR and payment termination processes to ensure benefits were terminated timely
following medical cessation determinations. We believe these actions have helped

22
  The medical cessation determinations on these cases were made from January 1986 through
January 2009.
23
   Of the 16,599 UMC cases SSA identified, 4,644 received a continuance or allowance as of June 2009.
However, SSA did not track whether the later determination was made after a new CDR, an appeal of the
original medical cessation determination, or a new application for disability benefits.
Page 9 - The Commissioner


reduce the number of DI beneficiaries and SSI recipients improperly paid following a
medical cessation determination. However, despite these actions, SSA continues
making improper payments to beneficiaries and recipients after their medical cessation
determinations. Therefore, we recommend that SSA:

1. Enhance the ability of the processing system to perform automated terminations to
   ensure the timely termination of benefits following a medical cessation
   determination.

2. Remind employees to check cases to ensure termination actions are accomplished
   timely.

3. Prioritize the identification of cases where disability payments have not been
   terminated following medical cessation determinations to minimize improper
   payments.

AGENCY COMMENTS
SSA agreed with the recommendations. See Appendix D for the Agency’s comments.




                                         Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                                           Appendix A

Acronyms
Act      Social Security Act
CDR      Continuing Disability Review
C.F.R.   Code of Federal Regulations
CY       Calendar Year
DDS      Disability Determination Services
DI       Disability Insurance
POMS     Program Operations Manual System
OIG      Office of the Inspector General
OPSOS    Office of Public Service and Operations Support
SSA      Social Security Administration
SSI      Supplemental Security Income
UMC      Uneffectuated Medical Cessation
U.S.C.   United States Code
                                                                                Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws and regulations and pertinent sections of the
    Program Operations Manual System related to continuing disability reviews and the
    cessation of benefit payments.

•   Interviewed Social Security Administration (SSA) staff from the Office of Public
    Service and Operations Support (OPSOS) to obtain an understanding of the
    processes to terminate payments to Disability Insurance (DI) beneficiaries and
    Supplemental Security Income (SSI) recipients who received a medical cessation
    determination.

•   Obtained a data file of 25,564 DI beneficiaries and 67,943 SSI recipients who
    received medical cessation determinations during Calendar Years 2005 through
    2010 and received monthly benefit payments more than 2 months after the medical
    cessation determinations.

•   Selected random samples of 250 DI beneficiaries and 250 SSI recipients.

•   Analyzed information available in SSA’s electronic systems—including the Master
    Beneficiary Record, Supplemental Security Record, Disability Determination
    Services Query, Case Processing Management System, Claims File Records
    Management System, Online Retrieval System, and electronic disability folder. 1

We conducted our audit in Kansas City, Missouri, in February and March 2012. We
determined the data used for this audit were sufficiently reliable to meet our objective.
The entity audited was OPSOS under the Office of the Deputy Commissioner for
Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objective. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objective.




1
 We relied on the information contained in SSA’s systems and did not determine whether the information
was accurate.
                                                                                    Appendix C

Sampling Methodology and Results
DISABILITY INSURANCE BENEFICIARIES

We identified a population of 25,564 Disability Insurance (DI) beneficiaries who received
medical cessation determinations during Calendar Years (CY) 2005 through 2010 and
received monthly benefit payments more than 2 months after the medical cessation
determination. 1 From the population, we selected a random sample of 250 beneficiaries
for review.

Our analysis of 250 beneficiaries identified 76 beneficiaries who, along with any
auxiliaries, improperly received payments after their medical cessation determinations
totaling $478,350. The following tables reflect the sample results and projections based
on our audit.

                                          Table C-1
                                Population and Sample Size
                    Beneficiaries in Population               25,564
                    Beneficiaries in Sample                      250
                                      Number of Cases
                    Cases Identified in Sample                    76
                    Point Estimate                             7,771
                    Lower Limit – Quantity                     6,553
                    Upper Limit – Quantity                     9,079
                    Payments Identified in Sample          $478,350
                    Point Estimate                       $48,914,188
                    Projection Lower Limit               $30,669,446
                    Projection Upper Limit               $67,158,930
                    All projections provided at the 90-percent confidence level.

In addition, we found that the Social Security Administration (SSA) had assessed
$288,422 in overpayments for 58 (76 percent) of the 76 beneficiaries who were
improperly paid.




1
 We identified beneficiaries who received a payment in the third month after the cessation determination
since beneficiaries are allowed to receive benefits for the month of cessation and the following 2 months.
SSA, POMS, DI 28001.001 B (November 7, 2002).


                                                   C-1
                                           Table C-2
                            Cases with Overpayments Assessed
                    Beneficiaries in Population              25,564
                    Beneficiaries in Sample Size                250
                                      Number of Cases
                    Cases Identified in Sample                   58
                    Point Estimate                            5,931
                    Lower limit – Quantity                    4,828
                    Upper Limit – Quantity                    7,156
                    Payments Identified in Sample          $288,422
                    Point Estimate                      $29,492,921
                    Projection Lower Limit              $17,593,698
                    Projection Upper Limit              $41,392,144
                    All projections provided at the 90-percent confidence level.

SUPPLEMENTAL SECURITY INCOME RECIPIENTS

We identified a population of 67,943 Supplemental Security Income (SSI) recipients
who received medical cessation determinations during CYs 2005 through 2010 and
received monthly benefit payments in the third month after the medical cessation
determination. 2 From the population, we selected a random sample of 250 recipients
for review. 3

Our analysis of 250 recipients identified 41 who improperly received payments after the
medical cessation determinations totaling $127,569. The following tables reflect the
sample results and projections based on our audit.




2
  We identified recipients who received a payment in the third month after the cessation determination
since recipients are allowed to receive payments for the month of cessation and the following 2 months.
SSA, POMS, DI 28001.001 B (November 7, 2002).
3
  During our review, we found one SSI recipient who did not receive a payment more than 2 months after
the medical cessation determination. On further research, we found that the recipient’s spouse received
an SSI payment on the date in question. Further, we found that our population of 67,943 SSI recipients
included 617 recipients with spouses who also received SSI. We reviewed a random sample of
50 recipients and found 12 recipients who did not receive a payment more than 2 months after the
medical cessation determination, but the spouse did receive a payment. Therefore, we estimated there
were 148 recipients in our SSI population that did not have a payment more than 2 months after the
medical cessation determination. However, this small number of discrepant cases was immaterial for the
purposes of our review. Therefore, we replaced the sample item.


                                                   C-2
                                      Table C-3
                            Population and Sample Size
                Beneficiaries in Population                67,943
                Beneficiaries in Sample                       250
                                  Number of Cases
                Cases Identified in Sample                     41
                Point Estimate                             11,143
                Lower Limit – Quantity                      8,608
                Upper Limit – Quantity                     14,090
                             Associated Dollar Amount
                Payments Identified in Sample           $127,569
                Point Estimate                        $34,669,747
                Projection Lower Limit                $11,661,160
                Projection Upper Limit                $57,678,335
                All projections provided at the 90-percent confidence level.

In addition, we found that SSA had assessed $51,189 in overpayments for 21 of the
41 recipients (51 percent) who were improperly paid.

                                      Table C-4
                        Cases with Overpayments Assessed
                Beneficiaries in Population                67,943
                Beneficiaries in Sample                       250
                                  Number of Cases
                Cases Identified in Sample                     21
                Point Estimate                              5,707
                Lower Limit – Quantity                      3,875
                Upper Limit – Quantity                      8,061
                             Associated Dollar Amount
                Payments Identified in Sample             $51,189
                Point Estimate                        $13,911,821
                Projection Lower Limit                 $6,740,726
                Projection Upper Limit                $21,082,916
                All projections provided at the 90-percent confidence level.




                                              C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      September 21, 2012                                                      Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Termination of Disability Benefits Following a
           Continuing Disability Review Cessation Determination” (A-07-12-11211)—INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                         D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“TERMINATION OF DISABILITY BENEFITS FOLLOWING A CONTINUING
DISABILITY REVIEW CESSATION DETERMINATION” (A-07-12-11211)


Recommendation 1

Enhance the ability of the processing system to perform automated terminations to ensure the
timely termination of benefits following a medical cessation determination.

Response

We agree.

Recommendation 2

Remind employees to check cases to ensure termination actions are accomplished timely.

Response

We agree.

Recommendation 3

Prioritize the identification of cases where disability payments have not been terminated
following medical cessation determinations to minimize improper payments.

Response

We agree.




                                               D-2
                                                                          Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Director, Kansas City Audit Division
   Tonya Eickman, Audit Manager

Acknowledgments

In addition to those named above:

   Karis Crane, Auditor
   Brennan Kraje, Statistician
   Charles Zaepfel, IT Specialist

For additional copies of this report, please visit our web site at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-07-12-11211.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
